<html>
<title> - COMBATING HUMAN TRAFFICKING IN ASIA</title>
<body><pre>[Senate Hearing 112-59]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 112-59
 
                  COMBATING HUMAN TRAFFICKING IN ASIA

=======================================================================


                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN 

                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 7, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


       Available via the World Wide Web: http://www.fdsys.gpo.go




                  U.S. GOVERNMENT PRINTING OFFICE
67-802                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

                  JIM WEBB, Virginia, Chairman        

BARBARA BOXER, California            JAMES M. INHOFE, Oklahoma
ROBERT P. CASEY, Jr., Pennsylvania   JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        JOHN BARRASSO, Wyoming
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

CdeBaca, Ambassador Luis, Ambassador at Large, Office to Monitor 
  and Combat Trafficking in Persons, Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     7
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    22
    Responses to questions submitted for the record by Senator 
      Benjamin L. Cardin.........................................    24
Webb, Hon. Jim, U.S. Senator from Virginia, opening statement....     1
Inhofe, Hon. James M., U.S. Senator from Oklahoma, opening 
  statement......................................................     3
    Prepared statement...........................................     3

                                 (iii)



                  COMBATING HUMAN TRAFFICKING IN ASIA

                              ----------                              


                        THURSDAY, APRIL 7, 2011

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:20 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jim Webb 
(chairman of the subcommittee) presiding.
    Present: Senators Webb, Boxer, and Inhofe.

              OPENING STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Good afternoon. This hearing will come to 
order.
    Today, we will hear testimony about America's efforts to 
combat the exploitation and trafficking of people in Asia.
    The U.S. Government has long recognized the negative 
impacts of human trafficking. Within the Congress, the 
Trafficking Victims Protection Act, TVPA, has mandated actions 
on a national and international level intended to reduce the 
flow of trafficking and to assist victims. In light of the TVPA 
reauthorization this year, today's hearing will examine the 
impact of our legislation on our antitrafficking efforts in 
Asia.
    Over the past year, I've heard from several regional 
governments, American officials in the region, and other 
stakeholders about the unique nature of human trafficking in 
Asia. The routes coming out of Asia appear to be among the most 
diverse of any region in the world, with routes flowing between 
Asian countries and out to other regions. Many countries serve 
as sources and destinations of trafficking victims. Calculating 
the flow of people within and across borders is difficult, 
given the range of activities that can be considered 
trafficking. These include forced prostitution, forced labor, 
domestic labor, child abduction, and child soldiers. In Asia, 
all forms can be found.
    Trafficking affects the region's security, in terms of 
border security and law enforcement. It also affects the 
region's economy. The economic incentives that create the 
demand for human trafficking play a role in thwarting efforts 
against it. Trafficking networks often operate as criminal 
syndicates--flexible, accommodating to demand, and profitable. 
Yet, without an accurate baseline and regional perspective, it 
is difficult to determine how flows of people are affected by 
changes in laws and enforcement activities against trafficking.
    A key area of concern for today's hearing is the 
methodology for compiling the State Department's ``Trafficking 
in Persons Report,'' the TIP Report, which is the Department's 
primary tool for documenting the scope of this issue. The TIP 
Report is required by Congress and has been issued annually 
since 2001. The United States was first included in the report 
last year. Unlike many other reports mandated by Congress, such 
as the State Department's ``Countries Report on Human Rights,'' 
this report is required to document the problem and grade 
countries on their antitrafficking efforts. The TVPA mandates 
four minimum criteria for domestic antitrafficking efforts and 
laws, and then judges a country's compliance with these 
standards. If a country is not in compliance, then the TVPA 
mandates that its efforts to comply be evaluated against 11 
criteria to determine if these efforts can be considered 
significant. The TIP Report ranks each country as Tier 1, Tier 
2, a Tier 2 Watch List, or Tier 3, with Tier 1 countries judged 
as having full compliance with the TVPA criteria, Tier 2 
countries as not being in compliance but making ``significant 
efforts to come into compliance,'' and Tier 3 countries as not 
being in compliance and not making significant efforts.
    The Tier 2 Watch List, a special category, includes 
countries ranked on Tier 2 that also meet the following three 
criteria: one, the number of victims in the country is 
significant or increasing; two, the country fails to provide 
evidence of increasing antitrafficking efforts and decreasing 
complicity in trafficking by government officials; and three, 
the country makes commitments to take additional steps, over 
the next year, to come into compliance.
    The report itself focuses on prosecutions of trafficking 
violators, protection of identified victims, and prevention of 
trafficking activities. Countries are required to provide data 
on their antitrafficking efforts, and this information is used 
by our embassies to prepare findings and recommendations for 
the TIP office in Washington.
    The account by a U.S. Embassy is the first and primary 
input for the TIP Report. But, the report's final ranking may 
not agree with an embassy's recommendation, as was the case 
last year with respect to Thailand.
    One key concern with the report process is that a country 
is judged by the progress it has made over the past year rather 
than against a consistent, measurable standard for each tier 
ranking. One country's ranking on a tier has no relation to 
another country with that same ranking. Moreover, a country 
that has a strong judicial and law enforcement system, such as 
Singapore, which has been ranked before as a Tier 1 country, 
having full compliance, can be downgraded if its efforts from 
year to year are not seen as increasing, based on the 
methodology in place.
    Arguably, the international community has committed to 
prevent, suppress, and punish trafficking in persons through 
international protocols and incentives. However, the United 
States attempt to enforce these commitments through TVPA and 
TIP Report, in many cases, has created confusion and 
resentment. Several countries in Asia have protested the lack 
of transparency in the report process and the rankings.
    In Asia, it's hard for many to understand why a country 
like China, the second largest economy in the world, with 
substantial financial and law enforcement resources, has 
consistently remained on the Tier 2 Watch List for the past 6 
years, despite a questionable record, whereas other countries 
fluctuate, such as Malaysia, between Tier 2, Tier 2 Watch List, 
and Tier 3. To many, the report process appears to lack a clear 
matrix for weighing the data provided by governments in 
defining a government's effort. For example, there's no clear 
definition of words such as ``progress,'' ``significant,'' and 
``increasing.'' The findings seem, to many, to be subjective. 
And for this reason, the report has been criticized for being 
influenced by politics instead of by objective data.
    I think we all support the intentions of the State 
Department to prevent human trafficking and to assist victims. 
However, our engagement with Asia is in danger of being 
hindered by the approach of this report, and especially the way 
countries are ranked in this report. For this reason, it's 
critical that we develop an approach that improves on 
antitrafficking efforts and strengthens our diplomatic 
relations. This approach is even more important in the context 
of Asia, a region of vital economic and security importance for 
the United States.
    I hope this hearing today can generate constructive 
discussion and suggestions for how our legislation can be 
refined in order to improve American antitrafficking efforts, 
while promoting positive incentives for countries to partner 
with the United States in combating this serious global 
problem.
    To help us examine these issues, I would like to welcome 
Ambassador Luis CdeBaca today to testify with us. Ambassador 
CdeBaca is the Ambassador at Large for U.S. antitrafficking 
efforts. He serves as senior advisor to the Secretary, and 
directs the State Department's Office to Monitor and Combat 
Trafficking in Persons. Mr. CdeBaca formerly served as counsel 
to the House Committee on the Judiciary and as a Federal 
prosecutor in the Justice Department, where he was honored with 
the Attorney General's Distinguished Service Award for his 
service.
    And, Ambassador, we appreciate your coming today.
    And, at this time, I would like to invite the ranking 
member, Senator Inhofe, to make an opening statement.

           OPENING STATEMENT OF HON. JAMES M. INHOFE,
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. Because of the 
constraints that I have on my time this afternoon, and because 
my statement pretty much echos your statement, I'm going to 
submit it for the record, because I want to stay long enough to 
hear Ambassador Luis CdeBaca's statement. So, if I may do that, 
I would appreciate it, without objection.
    [The prepared statement of Senator Inhofe follows:]

              Prepared Statement of Hon. James M. Inhofe,
                       U.S. Senator From Oklahoma

    Thank you, Mr. Chairman, for holding this hearing on human 
trafficking in Asia. The existence of human trafficking in any part of 
the world should be of utmost concern to the United States. Our 
action--or nonaction--in combating these practices is a reflection upon 
our Nation's deepest and most cherished values.
    The State Department's 2010 ``Trafficking in Persons Report'' 
reveals that East Asia is home to some of the world's most pernicious 
trafficking rings. Three of the countries in this region, Burma, Papua 
New Guinea, and North Korea, were awarded a Tier 3 ranking in the State 
Department's report, indicating that they both fail to meet minimum 
international standards for combating trafficking and are not making 
significant efforts to comply with these standards. Sadly, the vast 
majority of other states in Asia, while making some visible efforts to 
improve, also fall short of these requirements. Only two countries in 
this expansive region, Taiwan and South Korea, fully satisfy these 
basic, internationally accepted standards, and I applaud them. Today's 
hearing is most fitting as there is much that needs to be done.
    The reports we hear from Asia are disheartening. As those assembled 
in this hearing likely already know, no single ethnicity, gender or 
nationality is immune from the destructive impact of trafficking. Yet, 
unfortunately, some states are clearly more negligent in their conduct 
than others. In Burma, the commercial sex trade and forced prostitution 
are rampant, children are unlawfully conscripted into armed service and 
compulsory labor remains a widespread and serious problem, particularly 
among ethnic minority groups. In Papua New Guinea, crime rings and 
foreign businesses arrange for women to enter the country, only to 
bring them to logging and mining camps, fisheries, and entertainment 
sites where they are exploited in forced prostitution and involuntary 
domestic servitude. Men, too, are exploited for labor, where some 
receive almost no pay and are compelled to continue working for the 
company indefinitely through debt bondage schemes. These reports, and 
others like them, are commonplace throughout the region. From North 
Korea to Cambodia and Mongolia to Malaysia, few are left untouched.
    A country of particular concern in this region is China. As it 
continues to grow in prominence as an economic player, we cannot turn a 
blind eye to the acts of coercion and human degradation there, which so 
clearly defines their Communist regime. There continue to be reports 
that Chinese children are being forced into prostitution and labor, and 
many of these young laborers are the children of migrant workers. Some 
are as young as 10 years old. In November 2009, an explosion killed 13 
such children while they labored at a fireworks facility in Guangxi 
province. In Western China, reports tell of children being forced to 
pick cotton on army-sponsored farms under the pretense of a ``work-
study'' program to receive ``vocational training.'' Finally, the 
commercial sex trade is also very prevalent, both within China and 
across its borders.
    These accounts are only the beginning of the broader human rights 
abuses in China. During my career as a U.S. Senator, I have 
consistently fought for democracy, economic freedom, human rights and 
religious freedom in Communist China. We must remain critical of the 
Chinese dictatorship and their disregard for the dignity and welfare of 
their own people. We cannot allow the prospects of economic gain 
distract us from the realities of the unjust governance there. It is my 
hope that someday soon, the people of China will have their own 
democratic ``Chinese Spring.''
    My hope today is that we can assess how to effectively address the 
global problem of human trafficking. The Trafficking Victims Protection 
Act has been an encouraging step in the right direction. Yet, there is 
always room for improvement. Perhaps, adjustments in the scope and 
focus of the State Department's work might yield even greater results 
within the Department's relatively limited resources. I am anxious to 
hear the testimony of Ambassador Luis CdeBaca, whose experience in the 
Office to Combat and Monitor Trafficking will shed light on which 
initiatives have been effective and which might be better focused or 
revised. Further, I commend Ambassador CdeBaca's efforts in a cause 
that is worthy of our attention and action.
    Thank you, again, Mr. Chairman for holding this hearing on human 
trafficking in Asia.

    Senator Webb. Thank you very much, Senator Inhofe.
    And, Ambassador, welcome.

  STATEMENT OF AMBASSADOR LUIS CdeBACA, AMBASSADOR AT LARGE, 
OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Ambassador CdeBaca. Thank you, Senator Webb, Senator 
Inhofe, Senator Boxer.
    I would like to thank the subcommittee for having this 
hearing and for the opportunity to testify about our fight 
against modern slavery.
    It's very important, in fact, for this particular 
subcommittee to hold this hearing, because one cannot 
meaningfully address this grave issue around the world without 
focusing on Asia. The International Labor Organization tells us 
that the prevalence of modern slavery is higher in Asia than 
anywhere else in the world; men, women, and children enslaved 
at home and abroad, whether for sex or labor.
    A recent survey showed that more than 90 percent--excuse 
me--97 percent of mid-level officials surveyed in Southeast 
Asia viewed human trafficking as an important security concern 
for their countries. And yet, despite that statistic, 
governments, in the main, have not yet shown the political will 
to hold the traffickers accountable. Some focus solely on sex 
trafficking, but their efforts are then undercut by treating 
the women not as victims, but as illegal immigrant prostitutes 
or criminals. Forced labor cases are treated as administrative 
violations, if they are addressed at all. And in some 
countries, structures are established and meetings are held, 
but no one ever seems to go to jail. Corruption, for instance, 
makes laws hollow, at best.
    The three-P approach of the Trafficking Victims Protection 
Act that focuses on prevention, prosecution, and protection, 
and of the United Nation's trafficking protocol, is, in too 
many countries in the region, a three-D approach of denial, 
detention, and deportation of victims.
    But, all is not dire. In parts of Asia, clear successes are 
being registered to illustrate the importance of the Annual 
Trafficking in Persons Report, now in its 10th year, as a 
diagnostic and diplomatic tool. For instance, the Government of 
the Philippines has taken recent steps to address the 
trafficking of its citizens within the country and abroad, an 
effort that the government has publicly linked to the 
possibility of a downgrade to Tier 3 in this year's TIP Report.
    In Indonesia, a Tier 3 ranking was met, a few years ago, 
first by anger and denial, and then quickly by the 
establishment of a task force and passage of a comprehensive 
law. Within a few years, they were prosecuting the greatest 
number of labor-trafficking offenders of any country in East 
Asia.
    Malaysia's Home Minister credited the United States report 
as a factor leading to the passage of that country's 2007 law. 
But, then the law as basically ignored. In 2009, Malaysia was 
given a Tier 3 ranking. And independent reporting by the Senate 
Foreign Relations Committee implicated Malaysian officials in 
trafficking. Following that ranking of Tier 3, the government 
has created new structures and laws, increased the number of 
investigations and prosecutions, cracked down on trafficking-
related corruption, conducted a public information campaign, 
and, most importantly, begun to cooperate with civil society 
groups in a way that they have never done so before.
    While it was in danger of falling to Tier 3 just a few 
years ago, on Tier 2 Watch List, perhaps the strongest 
jurisdiction in the Pacific that is on Tier 1 currently is 
Taiwan. Now, instead of being locked up or deported, foreign 
victims stand a much greater chance in Taiwan of being 
identified, obtaining assistance, employment, or legal 
immigration status, and of seeing their abusers brought to 
justice.
    In each of the cases that I've mentioned, and many more in 
the region, the successes have come only after a frank and 
honest evaluation in the report. The rankings and narratives in 
the United States report each year are compiled, as you said, 
through interagency collaboration, interactions with 
governments and civil society, and field observation and 
research. We receive detailed information from our embassies, 
and we solicit input from nongovernmental and international 
organizations, as like. Our subject-matter experts travel to 
engage with governments and to collect data. We host specific 
roundtables, where our civil society survivors and U.S. 
Government officials can share information. And our staff is 
diligent in monitoring the most up-to-date reporting, research, 
and intelligence on modern slavery. This time of year, drafts 
of narratives and proposals are flowing back and forth between 
the TIP office and our counterparts at post.
    In the minority of nations where there are disagreements 
about the ranking, we convene an internal review process. This 
structured review process ensures a thorough and honest result 
that blends our office's expertise with the on-the-ground 
insights from our counterparts at post.
    A previously skeptical multilateralist observer has said of 
the report that it has made an indisputable contribution to the 
evolution of a global consensus around the problem of 
trafficking, and, specifically in Southeast Asia, has served as 
the impetus for major reform initiatives.
    If we hope to motivate reluctant governments to take 
appropriate action, accurate reporting is critical. That can 
mean telling friends truths that they might not want to hear. 
As Secretary Clinton has said, ``While this is a process that's 
fraught with all kinds of feelings, the easiest way to get out 
of Tier 3 or get off the Watch List is to act.'' Governments 
cite the U.S. report as a specific factor in motivating 
actions, even if they had publicly denied the problem or 
attacked the report in earlier years.
    Each of the success stories that I mentioned earlier came 
after Tier rankings that were considered painful, even 
controversial, at the time. Some worried that such rankings 
would put other policy priorities at risk. But, when the 
governments looked at the evidence and how standards were 
applied, they realized that the rankings by the United States 
Government were fair. We were able to move past denial to 
fruitful engagement. And our other relationships, such as 
counterterrorism, military cooperation, and trade, did not 
suffer.
    Now, perhaps some of that stems from the inclusion of 
recommendations and delivery of action plans that we've been 
doing in the Obama administration in order to meet these 
concerns about transparency, in order to meet these concerns 
about what we're really looking about in the report, from 
honest engagement throughout the year, and from the advance 
notice that we give governments so that they're ready on the 
day the report comes out, rather than being caught off guard.
    But, it's not just the report. Flowing from that accurate 
assessment comes technical assistance, partnerships, and 45 
programs in the EAP region, totaling nearly $15 million in 
foreign assistance.
    Results-oriented cooperation in this matter is one of the 
five pillars of our Asian-Pacific strategy, as pronounced by 
Secretary Clinton in Honolulu, in January. It carries out our 
foreign policy priorities and advances values that aren't just 
American, but are universal.
    As Assistant Secretary Kurt Campbell recently testified 
before this subcommittee, promotion of democracy and human 
rights is an essential element of American foreign policy, 
because it is who we are, as a people. When people or 
governments in Asia ask, ``Why does America care,'' about 
people held in modern slavery in their countries? Our answer is 
equally simple. This is who we are. This is what we do.
    Thank you, Senator.
    [The prepared statement of Ambassador CdeBaca follows:]

         Prepared Statement of Ambassador at Large Luis CdeBaca

    I'd like to thank Chairman Webb, the ranking minority member, and 
the members of the subcommittee for the opportunity to testify today.
    As Congress considers the reauthorization of the Trafficking 
Victims Protection Act, I welcome the opportunity to work with 
lawmakers and to engage in frank discussions about what is working well 
in our fight against modern slavery, as well as those areas where we 
can strengthen and improve our efforts.
    One of the most important tools at our disposal is the annual 
``Trafficking in Persons Report.'' Last year, the 10th installment of 
the report was issued comprising narratives about the state of human 
trafficking in 177 countries, including for the first time the United 
States.
    In the decade since the first TIP Report, the number of countries 
included has more than doubled. A more important statistic, however, is 
that since the first TIP Report in 2001, the number of countries placed 
on Tier 1--those countries complying with the TVPA standards for 
combating trafficking--has grown from 12 to 30. At the same time, the 
number of countries on Tier 3 has decreased from 23 to 12. Since the 
release of the first TIP Report, more than 120 countries have enacted 
antitrafficking laws, the number of victims identified and traffickers 
prosecuted has increased significantly, and recalcitrant governments 
have taken the first steps toward curbing this heinous crime.
    Of course, when we view these successes next to the enormity of the 
problem of modern slavery, it is clear how much work remains and that 
more than a decade after the passage of the TVPA, we have only begun to 
address the issue of modern slavery. And we cannot meaningfully address 
this issue without focusing on Asia.
    The International Labor Organization tells us that the prevalence 
of forced labor and sexual servitude is higher in Asia than anywhere 
else in the world, where nearly 3 in every 1,000 inhabitants have 
fallen victim. The International Organization for Migration and the 
World Bank have shown that the majority of the more than 200 million 
transnational migrants in the world are from Asia. Within the growing 
pool of Asian migrants is a huge population of people who are victims 
of sex and labor trafficking.
    The Asia-Pacific Center for Security Studies recently published a 
report which surveyed mid-level government officials, law enforcement, 
and military officers from the region. More than 97 percent of those 
surveyed viewed human trafficking as a fairly important or very 
important concern in Southeast Asia, compared to 73.5 percent who said 
the same about South Asia, 54.1 percent in Northeast Asia, and 85 
percent in Oceania. This statistic not only reflects the significant 
scope of the problem, but also the increased awareness among government 
and law enforcement.
    Furthermore, the Association of Southeast Asian Nation (ASEAN) 
member nations have not formulated regional strategies to combat modern 
slavery as the Council of Europe and the Organization of American 
States have done.
    While some countries in Asia have passed legislation to prohibit 
trafficking, governments as a whole have not yet shown the political 
will to hold the traffickers to the fullest account by imposing 
sentences commensurate with the severity of the crimes. Some countries 
focus solely on sex trafficking, but their efforts are misdirected by 
treating the women as illegal immigrant prostitutes or criminals rather 
than recognizing them as victims. Forced labor cases are sometimes 
treated as administrative violations, if they are addressed at all.
    The unfortunate result of these ongoing problems was that the 
number of countries in Asia downgraded in the 2010 TIP Report was 
greater than the number upgraded. The specific findings in last year's 
TIP Report with regard to Asian countries paint an even more startling 
picture.
    In recent years, we have learned a lot about the forced labor of 
migrant workers in the fishing and seafood processing industries. In a 
2006 study, the ILO found that 43 percent of Burmese in the Thai 
fishing sector who have given over possession of their identity 
documents to their employers cannot access these documents when they 
want to. In many cases, the employers hold onto these documents 
purposefully to restrict their employees' movement, even though without 
them, migrants are vulnerable to arrest and deportation.
    A U.N. survey of men and boys who were victims of forced labor on 
Thai fishing boats (which travel throughout the Pacific region) found 
that 29 of 49 (59 percent) reported seeing a murder by the boat 
captain. The problem of forced labor on fishing vessels in the Pacific 
region is one on which we are attempting to gain greater information 
and encourage governments to address. However, the inherently isolated 
nature of work on these vessels, and the legal jurisdictions of the 
waters in which these boats operate make this a particularly difficult 
challenge.
    We know that there are tens, and possibly hundreds of thousands of 
foreign migrant workers--many of whom are trafficked--in the Southeast 
Asian fishery industries. While this problem is widespread, in 
Thailand, we are aware of only six traffickers convicted by the Royal 
Thai Government for the forced labor of foreign workers in the 
industry--all but one of whom were freed on bail after conviction, 
pending their appeals. While the convictions represented successes in 
Thailand's efforts to combat trafficking, their limited number speaks 
to the work that still needs to be done.
    Farther east, Vietnam reported to us that last year, they did not 
criminally prosecute any labor trafficking offenders, but they fined 98 
recruitment companies a total of $10,900 and revoked the licenses of 
two firms. That's an average of only $111 per firm and a total of less 
than what one worker pays to be recruited for a job abroad. During 
these last months before the release of the new TIP Report, we are 
working with our colleagues in the country teams of U.S. missions 
abroad to encourage significant efforts and commitments that can be 
reflected in the new report.
    Indeed, a lack of avenues for redress of complaints by Indonesian, 
Bangladeshi, Sri Lankan, and Nepalese men and women in many East Asian 
destination countries denies them justice and a chance of effective 
recovery. It also fails in providing a deterrent through tough criminal 
sanctions to traffickers. Clearly, we have to elevate the ramifications 
for this type of exploitation above the cost of doing business.
    In South Korea, the government has had some success prosecuting sex 
traffickers and offering services to the victims. There is a known 
presence of women and girls in sexual servitude, including foreign 
women recruited to work on entertainment visas as singers and bars near 
U.S. military facilities. We know that women such as these often incur 
thousands of dollars in debts, contributing to their vulnerability to 
debt bondage upon arrival. The issue of child sex tourism--one that the 
U.S. Government attempts to tackle head on through extraterritorial 
application of relevant laws--is also one shared by South Korea and 
Japan, and the 2010 TIP Report sets forth how men from those countries 
fuel the demand for sex trafficking in Cambodia and other poorer 
countries. But unlike the United States, South Korea has never 
prosecuted one of its citizens for child sex tourism, and Japan's last 
prosecution was in 2005.
    The reality is that enforcement regimes in the Pacific region are 
woefully inadequate. Resource constraints, corruption, and a lack of 
political will have created an enabling environment in which sex 
slavery and forced labor thrives, and exploiters rarely face meaningful 
penalties.
    Yet clear successes are being registered, and those successes help 
illustrate the importance of the TIP Report as a tool for motivating 
government action on modern slavery.
    In the past year, the Philippine Government has taken important 
steps to address the trafficking of its citizens within the country and 
abroad; the government has publicly linked these efforts to the threat 
of a downgrade to Tier 3 in the 2011 TIP Report. The hundreds of 
backlogged trafficking cases in the court system are beginning to be 
fast-tracked, corrupt officials are being identified and punished, the 
government has increased resources available to combat trafficking, and 
most importantly, mechanisms to improve the government's 
antitrafficking responses are being institutionalized.
    In Indonesia, a Tier 3 ranking last decade led to the establishment 
of a human trafficking task force and in 2007 the passage of anti-TIP 
legislation. In 2009 Indonesia prosecuted the largest number of labor 
trafficking offenders (79) of any East Asian government.
    Malaysia's Home Minister credited the TIP Report as a factor 
leading to the passage of that country's 2007 anti-TIP legislation. In 
2009, Malaysia was given a Tier 3 ranking based in part on a report 
issued by this committee implicating Malaysian Government officials in 
a trafficking scheme. Since that ranking, the government has increased 
the number of investigations and prosecutions, cracked down on 
trafficking-related corruption in the government, conducted a public 
information campaign about trafficking, and enhanced collaboration 
efforts with the NGO community.
    While ranked Tier 2 Watch List just a few years ago, perhaps the 
strongest Tier 1 jurisdiction in the Pacific region is Taiwan--thanks 
to its political commitment to carrying out a series of tough 
antitrafficking reforms. Now, foreign victims of trafficking in Taiwan 
stand a much greater chance of being identified, subsequently given 
assistance to get back on their feet, and gain legitimate employment 
with legal immigration status. Taiwan authorities have made a 
commitment not just to enforcement, but to victim care, and that's 
making them stand out.
    In a region of the world where the challenge of modern slavery is 
so great, change is going to be slow and difficult. But we cannot allow 
slow progress to be used as an excuse to roll back what we know is 
working. Specifically, it is critical that the TIP Report remain a 
central tool in our government's antitrafficking efforts.
    The honest and thorough country narratives in the TIP Report take 
into account the findings of the U.S. Government, foreign governments, 
and the wide range of civil society actors who are part of the fight 
against modern slavery. As mentioned before, a major roadblock to 
effective antitrafficking efforts in some Asia countries is the denial 
by governments of trafficking problems. If we hope to motivate 
governments to take appropriate action to curtail modern slavery, 
accurate reporting must be the first step. This commitment often means 
telling friends truths that they may not want to hear. But as Secretary 
Clinton has said:

          Countries come to us and ask very forcefully not to be 
        dropped in their category and we hear them out and we tell them 
        [. . .] the kinds of things that we would look to that would 
        demonstrate the commitment that we think would make a 
        difference, to talk about best practices, to share stories. And 
        some countries have listened and the results speak for 
        themselves. Others have not.
          Now this is a process that is fraught with all kinds of 
        feelings and I recognize that, but the easiest way to get out 
        of the tier three and get off the watch list is to really act. 
        And we had some real friends, friends--countries that are 
        friends on so many important issues, and they were very upset 
        when we told them that they were not going to progress and, in 
        fact, were in danger of regressing. And then they said, ``Well, 
        what can we do?'' And we said, ``Well, we've pointed this out, 
        we point it out again, and we will stand ready to help you.''

    Additionally, the cases of governments citing the TIP Report itself 
as a specific factor in motivating antitrafficking actions are too many 
to be ignored. As long as governments are moved to address the problem 
either in reaction to a bad ranking or concern about a potential 
downgrade, the value of the TIP Report in those cases is evident. Our 
office is mandated to monitor and combat trafficking in persons; the 
most effective tool we have in carrying out those two charges is the 
TIP Report.
    Diplomatic engagement with governments in the Pacific and East, 
South and Central Asian regions has increased over the last 2 years. We 
regularly seek input for and responses to the TIP Report, and feed an 
ongoing dialogue on prospective improvements, centered on 
recommendations found in the TIP Report.
    We have particularly ramped up engagement with governments facing a 
potential statutory downgrade to Tier 3, three of which are in EAP 
(China, Micronesia, and Philippines) and three of which are in South 
Asia (Bangladesh, India, and Sri Lanka). We have ensured that 
governments were made aware of this amendment to the TVPA and its 
implementation in the 2011 TIP Report starting in 2009. I have since 
personally discussed this issue with senior officials in four of these 
six countries.
    During these last months before the release of the new TIP Report, 
we are working with our colleagues in the regional bureaus and at 
embassies abroad to encourage significant efforts and commitments that 
can be reflected in the new report. The separate TVPA sanctions 
decisions--to be issued by the President not later than 90 days after 
the report's release--will likely ensure that other important U.S. 
Government equities are not adversely affected by restrictions on 
bilateral assistance or MDB lending.
    Our office is mandated to monitor and combat trafficking in 
persons; the most effective tool we have in carrying out those two 
charges is the TIP Report.
    Again, I thank the subcommittee for the invitation to testify 
today, and I'm happy to answer questions.

    Senator Webb. Thank you, Ambassador.
    I have a series of questions that I want to ask in this 
hearing, related not to the goals of this legislation, but to 
the implementation and to the appearance and reality of 
fairness as different countries are evaluated in this process.
    What I'd like to do is defer to Senator Boxer for her first 
round of questions--obviously, former chair of this 
subcommittee--to go ahead and let her start the questioning.
    Senator Boxer. Well, thank you so much, Mr. Chairman. And 
thanks for holding this hearing. I just have a couple of 
questions. And I'm thrilled that I have this opportunity.
    Earlier this year, I introduced, along with Senators Burr, 
Cardin, and Scott Brown, a bill called the Child Protection 
Compact Act, or CPCA. The bill was developed in collaboration 
with World Vision and the International Justice Mission, as 
well as a number of other NGOs. If enacted, it would give the 
Department of State additional tools to combat child 
trafficking in a targeted, comprehensive fashion.
    Specifically, the CPCA would authorize the United States to 
enter into 3-year agreements, or compacts, with countries that 
have a high prevalence of trafficking but lack the resources 
and technical expertise to combat this epidemic.
    In order to enter into a compact with the United States, 
countries must admit they have a trafficking problem, they have 
to prove they have the political will to do something about it. 
And the bill does cap the amount of assistance a country could 
receive at $15 million over a 3-year period.
    And to ensure protections, it specifically states that 
funding should be withdrawn if the receiving country violates 
the conditions of the compact.
    Ambassador, do you believe that the targeted, comprehensive 
approach of these compacts would a useful and effective tool 
for the State Department to combat human trafficking? And would 
it help incentivize countries to improve their trafficking 
records?
    Ambassador CdeBaca. Thank you, Senator. The easy answer to 
that is ``Yes.'' We think that this would be a useful tool. The 
devil, of course, is in the details. And we need to look at the 
specific language, department-wide----
    Senator Boxer. OK.
    Ambassador CdeBaca [continuing]. To be able to get back to 
you about the particulars of this draft of the CPCA. There was 
some concerns, in the last Congress, about a portion of the 
CPCA that, frankly, didn't have to do with trafficking.
    Senator Boxer. OK.
    Ambassador CdeBaca. But, I think that----
    Senator Boxer. But, would you work with us really closely? 
Because, I think, you know, we need to do this. I am getting 
increasingly disturbed from stories that I hear about even 
babies being harmed. And I just can't even handle that. And I 
just--so, if there's something bureaucratic that we did, or 
something that you think is unworkable, we'll work with you. 
But, you'll be available to us?
    Ambassador CdeBaca. We will. We'll be at your service, 
because----
    Senator Boxer. Good.
    Ambassador CdeBaca [continuing]. One of the things that 
we've recognized is that, looking back over the last decade, 
cumulatively, the amount of money that the United States has 
spent on this fight is about equal to a little bit less than a 
month of what we spend on the drug war.
    Senator Boxer. I hear you.
    Ambassador CdeBaca. And so, the notion of taking a look at 
the funding, at the programs--how do we get not just the report 
that comes out once a year and has the diagnostic, how do we 
get the programs out and work with those governments----
    Senator Boxer. Right.
    Ambassador CdeBaca [continuing]. On law enforcement and 
training and everything else? And that--your bill certainly 
addresses that----
    Senator Boxer. Well, that's what we're trying to do, trying 
to break through the inertia.
    Like you, I've read ghastly stories about women from Asia 
being abused by their employers after traveling abroad for 
work. I'm sure you saw the story last year of a Sri Lankan 
housemaid whose Saudi Arabian employers nailed--I can't even 
say this--24 nails and needles into her body. And those had to 
be surgically removed. In another incident, the body of a 
female Indonesian maid was found on the streets of Saudi 
Arabia.
    Ambassador, how do you work with governments in Asia to 
help them increase protections for their citizens who travel 
overseas for work? And is the Saudi Arabian Government 
receptive to working to improve conditions for migrant workers 
from Asia and elsewhere?
    Ambassador CdeBaca. Senator, it's been difficult to work 
with both the sending and receiving countries. We've been 
trying to work with the South Asian and--Southeast Asian 
sending countries to be able to have those conversations that 
they, themselves, often can't have with the countries in the 
gulf and other places, because we recognize that the abuse is 
often so horrible, often behind closed doors.
    I was in Singapore in December when, I think, the story of 
the woman who was found in the dumpster in Saudi Arabia came 
out and was reported in the press. And it was interesting to 
see
the reaction in Singapore. Even though it was an Indonesian 
maid that that had happened to, a lot of the people we were 
meeting with in government started looking at their own 
situations and
started saying, ``Well, how can we work with the sending 
countries, whether it's the Filipinos''--et cetera.
    So, I think that, while we will continue to try to work 
with Saudi Arabia, the UAE, the various places where these 
things happen, we need to have a bigger conversation between 
sending countries, as a whole, and receiving countries, as a 
whole.
    The days of divide and conquer, where the receiving 
countries knew that the sending countries were dependent upon 
remittances----
    Senator Boxer. Right.
    Ambassador CdeBaca [continuing]. And were afraid to 
complain--those days seem to be falling apart, both as the 
trafficking fight intensifies, but also--when these stories 
come out----
    Senator Boxer. Right.
    Ambassador CdeBaca [continuing]. It changes people's 
behavior----
    Senator Boxer. Right. Well----
    Ambassador CdeBaca [continuing]. Around the world.
    Senator Boxer [continuing]. That's why I like the idea of 
this compact--having these compacts, because then it's not just 
a vague, you know, fading thing--I mean, if they say they're 
going to do certain things, whether they're a sender or 
receiver.
    My last question, with your indulgence, if I might, Mr. 
Chairman.
    On Monday, CNN reported on the enslavement of men aboard 
Thai fishing boats and the horrific conditions they're forced 
to endure, often for years. These men, many from Cambodia and 
Burma, are often lured onto these boats with the false promises 
of good wages, but, instead, they're forced to work without pay 
for long hours and in dangerous and extreme conditions.
    According to Lisa Rende Taylor from the U.N. Interagency 
Project in Human Trafficking, ``Even when they tire, even when 
they're sick, the captains compel them to continue to work 
harder by essentially instilling an environment of fear. So, if 
someone gets sick, they're killed and thrown overboard.''
    The U.N. estimates that hundreds, may even thousands, of 
men are enslaved on these boats--these fishing boats. And I'm 
particularly alarmed that the National Fisheries Association of 
Thailand, which works with the Thai Government on fishing-
related issues, says it hasn't received reports of any such 
abuses in recent years.
    Can you tell me what the State Department is doing to 
address this deeply concerning issue, and anything we can do to 
help you address this?
    Ambassador CdeBaca. It is of great concern, Senator, and I 
appreciate you raising it. We've seen several studies in a row 
that indicate that right around 55 to 60 percent of the folks 
in the fishery are being held in conditions of compelled 
service, whether that's in the packing sheds or whether that's 
out on the boats. This is something that we've raised directly 
with the Royal Thai Government, not just with the Royal Thai 
Police and their countertrafficking infrastructure, expressing 
the frustration that we haven't seen arrests and prosecutions. 
In the couple of cases that have been done, frankly, the people 
have been let out and opened up another factory right across 
from where they had been convicted of enslaving other people. 
So, this is something that we're looking at.
    We've seen, interestingly enough, probably more action, in 
recent years, from Malaysia on this. I think that it was in 
response to the report that the committee did. But, then also 
in response to the law enforcement training that we, the U.N., 
and other countries were able to provide, in the wake of that 
Tier 3 designation, 2 years ago.
    So, the Thai fishing captains that are getting arrested in 
that region these days are actually being arrested by Malaysian 
authorities.
    Senator Boxer. Wow.
    Ambassador CdeBaca. We want to make sure that the--that we 
work hand in glove with our Thai, Indonesian, Singaporean, 
Malaysian, Cambodian--all of our counterparts--not just one 
country doing the work, but all of the countries in the 
region--to try to protect this, especially because one of the 
biggest markets for that seafood is here.
    Senator Boxer. Well, what a good point. And, if I could 
just say, in closing, to you, again, thank you. This is such an 
important area. And, you know, again, I hope to work with the 
chairman and all of you, because I think--if we have these 
compacts and if people just say they're incentivized to work 
with us, but we hold their feet to the fire on this, it could 
make a difference, because right now, it appears to me, what a 
lot of this is, if we're fortunate enough to catch a news 
expose, or you're fortunate enough to hear about something--
but, there doesn't--to me, I think we can do more to make this 
more of a very serious program.
    And I want to thank you for your leadership. And I hope we 
work together on this.
    Senator Webb. Well, thank you very much, Senator Boxer. And 
also, this is a good chance for me to express my appreciation 
to you for all the years that you have put into this 
subcommittee and this full committee, and for having been so 
gracious as to allow me to chair this subcommittee over the 
past couple of years.
    Senator Boxer. I think I made a good decision. I know your 
particular passion in this area of the world.
    Senator Webb. Thank you very much.
    Senator Boxer [continuing]. Thank you. Thank you, both 
ways.
    Senator Webb. Thank you, Senator Boxer.
    Ambassador, I'm going to ask you a series of questions. 
Some of these are technical, but I think they're important, as 
we approach the legislation that is being implemented by your 
office, in ways that perhaps might actually improve our goals, 
and particularly as they relate to this part of the world.
    We all agree on the goals. I think that our credibility as 
a nation can be impacted if we are doing this in a way that 
does not show visible and measurable standards, or if 
governments in this part of the world believe that we are not 
doing this with a sense of fairness to efforts that they've 
been making and the standards that exist in their own 
governmental systems.
    And we also face the reality--and I've heard a lot of it 
since I've taken the chair of this subcommittee--that, whether 
it's intended or not in this legislation, nations believe that 
they are--or, governments believe that they are being compared 
with each other, based on these numbers, even though the 
numbers are devised to be comparisons solely of progress within 
this one governmental system.
    So, let me just start by pointing out that the State 
Department produces a variety of reports that assess a 
country's progress on a particular issue of concern, including 
the ``Human Rights Report,'' ``International Religious Freedom 
Report,'' ``Country Reports on Terrorism,'' ``International 
Narcotics Control, Money Laundering Strategy Report,'' ``Arms 
Control Compliance Report.'' Like the TIP Report, each of these 
reports are required by statute, to provide a country 
narrative, and many carry sanctions as a penalty for 
noncompliance with legislative standards. Where the TIP Report 
is unique, as you know, is in its attempt to rank individual 
countries on a scaled tier list.
    Could you describe for us the process for determining the 
final rank in the TIP Report? What is the process for resolving 
disagreements between embassies and the TIP office when a 
report ranking is being put together?
    Ambassador CdeBaca. Certainly, Senator. One of the things 
that we see throughout this time of year--in fact, this is the 
time of year when we're getting our information in from the 
embassies, supplementing it with the information from the 
international organizations, the NGOs, survivors, academic 
studies, et cetera--and that information from the embassies, by 
the way, is often, but not limited to, information given to us 
by the host government. So, we're taking the information that 
the government gives us about how many cases they're doing, 
what's happening to the victims, what kind of money is being 
spent on victim care. What alternatives to deportation are 
there? Are people being detained, or are they being given 
access to rehabilitative services? All of those types of things 
are given from the host governments to our reporting officers 
at post.
    Now, optimally, those are relationships that are working 
throughout the year. What we've seen is that, when we have an 
embassy that is doing a lot of engagement throughout the year, 
with that government, on this issue, that we have fewer crossed 
wires when we start to write the report and as we're going back 
and forth with our colleagues at post.
    But, what we see, then, is: taking the information, 
standardizing it, making sure that we're looking at the same 
parameters, applying the same minimum standards set forth by 
Congress. And, in recent years, I've made sure that those 
minimum standards are in the report, released to the world so 
that everyone can see exactly what it is that they're being 
judged on.
    I brought a copy of the first report, and this was the 
report--
I think this one's from 2001. And basically, it had a paragraph 
per country--I think there were only about 60 countries--a 
paragraph that simply issued a verdict. Now the narratives that 
go with the report actually track each of the congressionally 
mandated minimum standards so that we can go through them, 
first internally--the back and forth of the flow with our 
colleagues at post and others within the Department--as we 
decide whether or not those particular--as you said earlier, 
the minimum standards and the 11 different factors that go into 
it. Have those been satisfied? Whether progress is being made. 
If there is progress being made, is it promises of progress or 
is it actual results? Again, we're looking for results-oriented 
data.
    At that point, then, our analysts will recommend a ranking 
based on the application of the facts and the law, together. I 
look at those--we look at those with our folks from the office 
of the legal advisor to make sure that it's squared away, as 
far as the legal analysis concerned, and then we release those 
to our colleagues out in the regional bureaus. The vast 
majority of the cases, at that point, are resolved immediately, 
because there is no dispute between us and our friends at post. 
In those numbers--and I think that sometimes it can be around 
30 percent that the folks at the regional bureaus and post 
decide that they would like to disagree on--we end up doing a 
series of what we call--historically have called ``dispute 
resolution meetings.''
    I'm told that, in the early days of the office, there 
weren't dispute resolution meetings, there was meeting in a 
conference room and yelling at each other. Now, what we try to 
do is actually have something that's a little bit more formal, 
chaired, the analysts and their counterparts presenting the 
cases, presenting how these things are actually applying the 
facts and the law.
    And most of the countries, at that point, we can resolve at 
the Assistant Secretary level, between me and my counterparts 
out in the regional bureaus. There's a few countries, for 
whatever reason, that then may need to go up to the Under 
Secretary or to the Deputy or even the Secretary to be finally 
resolved. And that's something that we want to make sure that 
does not become the norm, so we try to resolve things at the 
Assistant Secretary level.
    Once that happens, the process--and this is--you know, I 
came from a courtroom background. The adversarial process is 
not something to be feared. It actually--the truth tends to 
come out. There's been times when--many times over the last 2 
years--when our colleagues at post or the regional bureaus come 
in with facts that we didn't know at the time, and perhaps the 
government hadn't told it to them. Perhaps they then had an 
incentive to go out and find those facts and, in doing that, 
have convinced me that the ranking that we initially had 
proposed was not necessarily the ranking that should go out at 
the end of the process. And so, we end up having those 
conversations.
    What comes out at the end of the process is a unified U.S. 
Government ranking that reflects what the State Department has 
decided about that particular country in that particular year.
    I apologize for the length of that description.
    Senator Webb. Well, I appreciate the detail that you put 
into it. Actually, I was thinking when you were talking, that 
we used to sit in rooms yelling at each other, but in the 
electronic age, we just send angry e-mails to each other. 
[Laughter.]
    But, I'm curious; I was in Thailand in the end of May last 
year, and there was a very strong request from the Embassy 
there that their rating not be downgraded, given the incredible 
turmoil that Thailand had been through. I passed that on when I 
returned as an observation. I'm not, obviously, inside your 
process, but I'm curious as to the methodology that was applied 
in that situation.
    Ambassador CdeBaca. Well, I can't really get into 
individual internal deliberations, whether last year or 
otherwise. But, what I will point out is that we do have a 
process for looking at countries that are in the midst of 
turmoil. Each year--and this last year, it's--two countries 
were in what we call the ``special case category''--Haiti and 
Somalia--because they didn't have functioning governments. 
That's how, under the TVPA, legally, we can look at whether or 
not the situation on the ground, whether it's civil unrest or 
what have you, may have put a government in a situation where 
they couldn't adequately----
    Senator Webb. OK. Well, let me ask you this way, because 
maybe it's a clearer way for you to answer. We've seen a lot of 
initiatives over the past couple of years, including from the 
State Department, stressing the importance of establishing 
baselines, metrics for monitoring the effectiveness of our 
efforts--baselines, the things that can make decisions more 
understandable. What are the baselines in these TIP Reports for 
determining the country's level of progress? What are the 
metrics used to evaluate the effectiveness of programs?
    Ambassador CdeBaca. Well, we look, of course, to the 
minimum standards and the factors that go into them to 
determine that. We don't want to get into a situation where a 
country who prosecuted six people last year prosecutes four 
people this year, and so, therefore, we do a downgrade. We 
don't want it to be that capricious. Because, we recognize 
that, in the law enforcement world, you prosecute the people 
who are in front of you.
    So, what we're looking at, in many ways, is the number of 
victims identified; the number of victims assisted; if there's 
a big gap between the number of victims identified and the 
number of investigations that result; and then, if there's a 
big gap between the number of investigations and the number of 
prosecutions. And we see major falloffs in many of the 
countries in the region, where you'll have thousands of victims 
identified, dozens of cases investigated, and two or three 
traffickers brought to justice. And so, that's one of the main 
metrics that we're looking at when we're applying the minimum 
standards that have to do whether the prosecution arm of this 
three-P paradigm--prevention, protection, and prosecution--is 
being met.
    Senator Webb. But, if you're doing that--if you're doing 
this in countries that have evolving judicial processes, sort 
of like the learning curve, the growth from year to year can be 
greater even though the stability in the country itself may not 
be as great. And yet, we are giving numbers that different 
systems are looked at from the outside as having been assigned 
to them. How do you resolve that, in terms of our foreign 
policy?
    Ambassador CdeBaca. Well, one of the things that we do is, 
we're looking--we've started, over the last 2 years--I can't 
speak for the Bush administration--but, in this administration, 
what we've been doing is, for the first time, we started 
looking at some of the other indices, whether it's the Freedom 
House Index or the Corruption Index, and have realized that the 
tier rankings are, in many ways, tracking some of those 
concepts. What we want to do is, we want to figure out what 
rule of law looks like in that country. What's the capacity of 
the police?
    There is a difference in what a country like Laos, where 
the judges may not have gone to law school and the police 
officers don't even have a way, other than walking, to get to a 
crime scene. There's a difference between that and a highly 
trained, highly organized police force in some of the other 
countries in the region.
    What we look to, in many ways, is, if a country is 
investigating and prosecuting murder cases, if a country is 
investigating and prosecuting organized crime cases, if a 
country has shown a--shown themselves to be a partner at the 
higher levels of law enforcement, then we're going to judge 
them according to that, where their neighbor, perhaps, might 
not have a functioning court system. And we're going to give 
that type of a country a bit more of the benefit of the doubt.
    Senator Webb. Seems to me that the implicit assumption in 
this legislation, at least the way we're measuring output, is 
that human trafficking is best addressed by country-based 
programs. But, the very nature of human trafficking, 
particularly in a place like Asia, is global. It's like other 
transboundary problems, like riparian water rights, which we've 
been talking about in this region, with respect to the Mekong. 
I've long been an advocate of a multilateral approach, in terms 
of resolving these sorts of issues. How does the TIP Report 
acknowledge trafficking as a global problem? And how can our 
efforts be more targeted to address this at a regional level?
    Ambassador CdeBaca. You know, one of the things that we've 
seen, and that we certainly give credit to countries in the 
protection section of each--of the narratives in each of the 
reports, is, we look to see what they're cooperation with 
neighboring countries and with regional counterparts actually 
are.
    But, we don't stop there. In South Asia and Southeast Asia, 
we have--especially in Southeast Asia, with ASEAN--we're 
beginning to move forward on doing countertrafficking work with 
ASEAN as ASEAN, not just with its own countries. We're funding, 
through the United Nations, those who are the Secretariat for 
what's called the ``commit process,'' which is an 
antitrafficking network in the Mekong subregion that has been 
able to assist with investigations. We're going to be building 
up our linkages to a very innovative Australian project, which 
was actually able to tap a lot of United States expertise, that 
is going in and training prosecutors in the region.
    So, we want to make sure that we, at the one hand--just 
like we do with the OAS in Latin American, where we were able 
to work with them to get a regional action plan--that we can 
work with ASEAN so that--not just a regional action plan, but 
then, commitments from countries as to how they're going to 
increase their law enforcement.
    In the best of all possible worlds, in the king-for-the-day 
scenario, what we do is, we take the strong law enforcement 
players, vibrantly looking at trafficking, get them to the 
point where they were experts, take our--just like we do with 
organized crime and money laundering--take our friends from 
Singapore, Hong Kong, Thailand, et cetera, the folks that--some 
of the best detectives in the world--have them with us when 
we're out there in the countries like Cambodia, et cetera, who 
need that kind of help.
    Senator Webb. You mentioned Singapore. As you know, last 
year Singapore was downgraded to the Tier 2 Watch List. In 
2006, it was ranked Tier 1 and dropped to Tier 2 after that. I 
would have to say, I had a number of friends--including a good 
friend who lives in Singapore--that were sort of amazed at this 
categorization, when you look at the quality of the government 
and the order in the society. One of them actually made a 
comment to me, saying that if you compare the stability in 
Singapore to the United States, with its estimated 20 million 
illegals, many of whom came here through human trafficking, 
``What's going on?'' What is your thought about what's happened 
to the ratings in Singapore?
    Ambassador CdeBaca. I think that one of the things may 
actually be reflected by your friend's confusion with the 
situation and the ranking, in that Singapore, like several 
other of the former commonwealth countries, has been--rather 
than updating its antitrafficking laws under the standards of 
the United Nations protocol from 2000--what we call the 
``Palermo Protocol,'' which focuses upon the exploitation and 
slavery that the person suffers--Singapore has been only slow 
to awaken to the legal structures of today, as opposed to the 
transportation-based theory of trafficking, as reflected in the 
1880 British White Slave Trafficking Act, which was about the 
notion of people being moved from country to country. We've 
seen this in several other small countries in the region, that 
the focus tends to be on that old conception of trafficking, as 
opposed to the slavery.
    So, what we've seen--and I've had, also, friends from 
Singapore who've, knowing what I do for a living, said, ``Well, 
wait a second, if I took my maid's passport so that she 
couldn't run away, that wouldn't be trafficking, though.'' 
Well, that is trafficking. And I've actually put people in jail 
for that here in the United States.
    So, I think that there's a little bit of cultural work that 
we need to be doing. We're talking to the Singaporians. I've 
been there. I've met with Ambassador Chan, I think, four times 
over the last few months. And we're very happy that, next week, 
a delegation from Singapore will be coming--probably not 
meeting with my staff, depending on what happens, but I'm going 
to be in at work, nonetheless. So, I'll be meeting with them.
    And we're starting to have that conversation in a new way 
with Singapore over the last year. And we know that you've been 
involved with that. We appreciate that. We appreciate the new 
openness that we've seen from the Government of Singapore in 
the last 3 or 4 months, to look at forced labor, to look at sex 
trafficking there in Singapore.
    Senator Webb. Well, I thank you for that answer, but I also 
would make the observation, when you mention my friend's 
confusion, I think that's a general confusion, because in the 
way that this rating system is designed--where you're looking 
at the progress inside a country, year by year, evaluating a 
country against itself, as opposed to having this be a comment 
about the quality of that governmental system compared to other 
countries in the world. That is one of my main concerns with 
the system that we now have in place.
    Ambassador CdeBaca. I think that one of--it's--in the 
criminal law, we tend to call it an objective/subjective test, 
where you're looking not only at the individual and whether 
they were acting reasonably for their ownself, but also if they 
would be acting reasonably as a person in that situation--a 
hypothetical reasonable person. In some ways, this is the 
trafficking world's objective/subjective test.
    I think that one of the things that we've seen with 
Singapore is, even on just objective outside measures, there 
are causes for concern. And we've been able to have good 
dialogue with them, over the last few months, about these. For 
instance, the notion of arresting and deporting over 7,000 
women and not screening them to see whether or not they were 
enslaved--women in prostitution, we know that that's one of the 
places where this happens--and yet, no real ways to screen 
those people.
    But, the Singaporians, as you know, are----
    Senator Webb. By the way, this whole hearing shouldn't be 
about Singapore.
    Ambassador CdeBaca. Of course. Of course.
    Senator Webb. Let me ask you one final question about 
Singapore since we've been on it. And then, I have some other 
questions I want to move on to. What were they doing right in 
2006 that they got a Tier 1?
    Ambassador CdeBaca. I can't speak to that. I was 
prosecuting cases here in the United States. I wasn't involved 
in the internal decisionmaking, as far as that ranking.
    Senator Webb. But, wouldn't that raise your eyebrows a 
little bit? I can't imagine that the governmental system in 
Singapore has degenerated, in the last 5 years, from a Tier 1. 
This is the confusion on the ratings system, when people look 
at it.
    Last year, Kiribati was included in the report for the 
first time, and it was ranked on a Tier 2 Watch List. I've 
actually been to Kiribati. It's in the middle of nowhere. 
There's no embassy in Kiribati. The American Embassy is in 
Fiji, 1,000 miles away. How did Kiribati come to be included in 
the report? And how was this information compiled?
    Ambassador CdeBaca. Well, as you said, we don't have an 
embassy in Kiribati. We have embassies and folks that cover 
Kiribati. And we've been looking a lot more at the small 
oceanic states. Over the last year, I've had folks out in the 
region, and we've had people visiting. We've seen some 
countries where there's major improvement, Fiji being one of 
them.
    One of the things that we're seeing in a lot of those small 
islands, though, is a combination of foreign guest workers 
being enslaved for forced labor, and Chinese or other Asian 
mainland women showing up in the bars and brothels. This is of 
great concern.
    But, we're not just dealing with it by looking at the 
rankings. We've also--just in recent weeks, we were able to 
fund training in Guam, where we brought in people from the 
region. I'm looking at moving programming money into the region 
so that we can get more and more--you don't really do law 
enforcement on an island-by-island basis in the Pacific; you 
use such things as SPICIN or some of the other kind of cross-
Pacific coordinating bodies. And we're looking to work with 
them so that we can increase the capacity.
    Just in the last few weeks, we've seen cases in FSM, in 
Palau, et cetera. And we see this as a growing concern. And I 
wish I could say whether it's growing or whether it's simply 
being noticed more.
    Senator Webb. In your testimony, you note that South Korea 
has never prosecuted a citizen for child sex tourism, and that 
Japan's last prosecution was in 2005. You state that Korea has 
a known presence of sex trafficking, and the TIP Report states 
the same for Japan. However, apparently, South Korea is ranked 
on Tier 1 in the 2010 report, and Japan is ranked on Tier 2. 
How do we come to these conclusions?
    Ambassador CdeBaca. Well, first of all, I think Japan and 
South Korea are both on Tier 1, if I recall right. I can't 
always keep all 194 countries squared away, Senator, but--
excuse me--you're correct.
    I think that what we see, as far as the sex tourism is 
concerned, is that many of the Tier 1 countries around the 
world are demand-drivers for sex tourism. Whether it's--the 
stereotype is often of a German or an American in Cambodia, for 
instance. And yet, when we've seen prevalent studies done in 
Cambodia or Laos or Vietnam, the Japanese and the Korean 
tourists, often on 3- or 4-day golf outings, are the ones that 
are seen as driving the market for children in those brothels.
    One of the things that we've seen, though, is that those 
rankings are not necessarily driven by child sex tourism. The 
way that Congress mandated us to address whether or not there 
was a child sex tourism problem, and whether or not a country 
was doing anything to address it, is not even one of the 
minimum standards that goes into the rankings. And what we've 
seen, however, is, in both countries, a domestic sex industry 
that has a lot of people who are in compelled service.
    In Korea, there are more structures to address that. In 
Japan, we don't see the number of prosecutions. We don't see 
the modern law. We don't see that type of a response. We've 
been working with the Japanese. We'll continue to work with the 
Japanese. But, we've seen that, whether it's in the artistes 
type of visas, where they're bringing up entertainers from the 
Philippines, or whether it's even in caregivers from the 
mainland that are being brought over. So, there's a big 
situation in Japan. We'd like to see more prosecutions, and 
we'd like to see more investigations.
    Senator Webb. At this point, I would like to emphasize that 
this line of questioning is really designed to try to examine 
your methodology rather than being a comment on my view of the 
quality of the governmental systems in most of these places 
that I'm mentioning. Through this we begin to understand how 
confused people can be when they look at these rating systems 
and then look at the quality of a lot of these governmental 
systems.
    My staff went through the TIP Reports, and one of the 
things that was pointed out was that Nigeria is the only sub-
Saharan African country ranked on Tier 1. And the question is, 
again, What has Nigeria done to obtain a ranking that Japan, 
Hong Kong, Singapore, and some of these other countries, have 
not?
    Ambassador CdeBaca. Well, again--and perhaps this will--
being able to compare the two would help with your overarching 
question, Senator, about methodology--as I said earlier, we 
look at the metrics that we're looking at: protection of 
victims, prosecution of offenders, investigations versus 
prosecutions versus convictions. In Japan, you've got a 
country, the last year of prosecuting, convicted five people. 
You've got a situation where most of the sentences, if they are 
received at all, are suspended. You don't have victims being 
identified, in a country where the NGOs and even the Japanese 
Government acknowledges that there's a major trafficking 
problem.
    In Nigeria, what you've got is a country that was slated 
for Tier 3, headed that way, then looked at the other countries 
of the world, started to see, ``Well, what's going on out 
there? What can we start bringing in?'' And what the Nigerians 
did with the formation of something called NAPTIP--the National 
Association for Trafficking--I don't remember the exact 
acronym--is that they did something very innovative. They 
brought in police, prosecutors, and social workers into a 
colocated unit. So, those folks work together, now, with each 
other. You don't have the situation where--for instance, that 
you do in Japan--where the police go and do their work, decide 
whether or not this is a victim who they think should be 
rescued, never talk to the social workers, never gets to the 
prosecutor, because the prosecutor's not involved with those 
decisions.
    In Nigeria, what they decided to do for trafficking is to 
put all of those folks into the same unit. So now, several 
years on, not only do we see dozens and dozens of prosecutions 
in Nigeria--it's probably the one place in Nigeria that we can 
say law enforcement response is actually working--but, what 
we've seen now is that the police have the interviewing skills 
of a social worker. The prosecutors have the knowledge about 
investigations that the police officers would have. The police 
officers know what they need to do to go into court. So, by 
working in an interagency type of manner in Nigeria, we've been 
able to see results.
    Now, I've been going around Africa, certainly, and telling 
this story, wanting to--you know, getting people in and out of 
Nigeria so they can see the model.
    Senator Webb. But, at the same time, I wouldn't think 
you're in any way suggesting that the quality of the legal 
system and societal stability in Nigeria is superior to that of 
Japan.
    Ambassador CdeBaca. Not whatsoever, which actually makes--
--
    Senator Webb. OK. Well, that goes to the difficulty that we 
have when we're looking at the way that these numbers come out. 
Different governmental systems have different ways of dealing 
with problems. And when you're measuring the progress of a 
country against itself, but the numbers come out there, so all 
these other countries see them. This is the impression that is 
out there.
    For instance, I'm very proud that I was the first American 
journalist ever allowed inside the Japanese criminal system in 
1983. I spent a month going through the Japanese criminal 
justice system and their prisons. And if you go to prison for 2 
years in Japan, you have really done something wrong. The way 
that they resolve a lot of these issues--it may not be the way 
that we do, but it's very effective in terms of fairness and 
stability in their society.
    And so, again, the point I'm trying to make here is I think 
we all share the same objective in terms of being able to 
properly address issues of human trafficking. But, I think we 
need to work--maybe we can have some meetings in the near 
future, to see if we can't have some improvements on this 
legislation. I don't know what that would be. I'm really 
interested in sitting down and hearing further thoughts from 
your office on this so that we can make sure that people 
understand that the numbers on here aren't judgments on their 
societal systems, particularly the ones who are more advanced, 
in terms of legal systems and those sorts of things. Would you 
agree that there is a way to perhaps address them?
    Ambassador CdeBaca. We'd very much look forward to that, 
Senator. I think that one of the things that we have to deal 
with as we look at the differences between capacity of 
governments--what the specific legal systems are--you know, 
what works in a common law country is not something that we 
should be saying is the solution for a civil law country, for 
instance. And not only do we know that, we want to work with 
you and others to try to sharpen that so that we are looking at 
that country across the board, but then also specific to its 
own circumstance.
    One of the things that we are always concerned about is, 
countries that do a good job on other complex criminal issues 
need to be doing the same level of work in human trafficking as 
they would be on organized crime, kidnapping, murder, rape, et 
cetera. This is a core human rights crime. And so, it needs to 
be dealt with at the same level of those other serious 
offenses.
    So, we'd look to the other countries that are leaders in 
policing, in law enforcement, that have courts that work. And 
we think that we need to then have that conversation, as far 
as, How is it that trafficking victims either aren't having 
access to court or those who hold someone as a slave aren't 
being punished the same way that if they were holding them for 
ransom or something like that?
    So, those are discussion that not only do we need to have 
with those countries, I think those are profitable discussions 
for us to have with you and your staff and other interested 
folks up here, so that we can sharpen and improve this process.
    Senator Webb. OK, thank you.
    Thank you very much for your testimony today. I think it's 
been really valuable. I look forward to working on this so that 
we can meet the goals of the legislation, and perhaps make some 
adjustments that can improve the visibility and fairness and 
maintain the credibility that we have, in this particular part 
of the world as someone who is there to increase the stability 
and be partners with our country.
    Thank you very much for coming to this hearing.
    There have been other Senators who have requested to submit 
questions for the record.
    They will have 24 hours, and Ambassador, we will be sending 
those over to you.
    And, now the hearing is closed.
    [Whereupon, at 3:21 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


           Responses of Ambassador Luis CdeBaca to Questions
                   Submitted by Senator John F. Kerry

    Question. How well equipped is the Department to respond to urgent, 
unexpected trafficking in persons situations? What tools should 
Congress consider providing to augment current efforts?

    Answer. The Department's ability to respond to urgent, unexpected 
TIP situations is frankly uneven. In the last year, by repositioning 
resources and reprogramming funding, we have been able to respond 
quickly to crises or opportunities such as the Haitian earthquake and 
the Tunisian Jasmine Revolution. Beyond crises, however, the Department 
receives frequent requests for assistance in drafting antitrafficking 
legislation, training law enforcement, and establishing shelters--often 
from countries that want to respond to the concerns identified in the 
annual TIP Report, but lack expertise or resources to do so. We 
frequently find ourselves hard-pressed to respond because of a lack of 
financial or human resources, or because the current funding structures 
are weighted heavily to multiyear projects selected through a 
multistage peer review process. Once projects are funded, they must be 
monitored and evaluated to ensure that the recipient effectively 
provides the training or victim care outlined in their initial 
proposal. We would welcome the opportunity to consult with your staff 
about strengthening the USG's ability to respond quickly with core 
expertise to urgent, unexpected trafficking in persons situations.

    Question. What is the State Department's position with respect to 
the Child Protection Compact Act? Are there specific provisions that it 
would like to see augmented, modified, or stricken?

    Answer. Secretary Clinton has identified trafficking in persons as 
a key strategic priority of the Department of State, and the Department 
would welcome expanding the resources available for combating this 
heinous crime. The Department looks forward to working with Congress in 
crafting a bill that advances our strategic interests on the ground, 
while preserving the Secretary of State's authority and discretion.

    Question. What mechanisms are in place to ensure coordination with 
other U.S. Government agencies, such as the U.S. Agency for 
International Development and the Department of Labor, that also have 
international programs to prevent and respond to trafficking in 
persons?

    Answer. In addition to directing the State Department's Office to 
Monitor and Combat Trafficking Persons, I chair the Senior Policy 
Operating Group (SPOG) on Trafficking in Persons, which meets quarterly 
to ensure that USG policies and programs to prevent trafficking, 
protect victims, and prosecute traffickers are well coordinated and 
effective. The SPOG coordinates grantmaking decisions among SPOG 
programming agencies (including State, USAID, and the Department of 
Labor, as well as the Departments of Justice, Health and Human 
Services, and Homeland Security). Prior to obligating funds, these 
agencies share information on solicitations and proposed grants and 
contracts. When an agency wishes to award a grant or contract, enter a 
cooperative agreement, or issue a letter of contribution containing a 
significant antitrafficking component, it sends a brief summary of the 
proposal and the amount to be awarded to G/TIP. G/TIP then distributes 
the information electronically to the designated persons at each SPOG 
agency and State Department office. There follows a 7-business-day 
comment period for responses, during which time other agencies may 
provide feedback regarding potential duplication of existing or planned 
efforts, and/or suggest opportunities for partnership and collaboration 
with their agency's programs. In addition, the SPOG has established a 
Grantmaking Subcommittee to bring together TIP programming agencies to 
share program information and address key program areas for 
collaboration.
    G/TIP employs a multistep process for incorporating input from 
other agencies in its own grantmaking progress. G/TIP's International 
Programs section issues one solicitation for grant applications each 
year and conducts a multistage review. Bilateral proposals are sent to 
U.S. embassies for review and ranking by the TIP country team. 
Following post's rankings, G/TIP convenes regional Interagency Review 
Panels, including representatives from the regional bureaus and other 
elements of the Department, and DOL, among others (subject to 
availability of staff). This year, representatives from DOI's Office of 
Insular Affairs will be invited to participate in proposal review for 
Oceana, in recognition of its particular expertise and leadership in 
the Pacific. The G/TIP Ambassador at Large reviews panel results, and 
his recommendations are forwarded to the Director of Foreign Assistance 
for final approval. We look forward to continued cooperation with our 
partners at USAID in their programming as well.
    At the end of every fiscal year, G/TIP also gathers information 
from the Federal Agencies and Departments that fund antitrafficking 
activities and organizes the data on U.S. Government funds obligated in 
that fiscal year. This information is posted on G/TIP's Web site and 
published in the Attorney General's annual report on trafficking in 
persons.

    Question. Last year, the TIP Report's ranking for Thailand garnered 
some attention. In recent meetings with committee and staff members, 
Thai officials have cited the previous steps they have taken on these 
important concerns. How have Thai and U.S. authorities been working 
together since Thailand's designation last year to achieve progress on 
trafficking issues?

    Answer. The United States and Thailand have a productive ongoing 
dialogue on human trafficking issues. The USG has a longstanding 
antitrafficking dialogue with the Royal Thai Government (RTG), 
illustrated by regular exchanges in Bangkok and Washington, involving 
several agencies from both governments and conducted in an atmosphere 
of mutual respect. Drawing on U.S. experience in addressing forced 
labor, child sexual exploitation, and sex trafficking, officials of the 
U.S. Departments of Justice, Homeland Security, and Labor regularly 
consult and exchange technical skills with RTG counterparts, including 
antitrafficking courses offered at the International Law Enforcement 
Academy in Bangkok.
    In recognition of the magnitude of the trafficking problem and 
important partnerships with the RTG on so many issues, I have traveled 
to Thailand more than any other country during my tenure as Ambassador 
at Large. I will continue to stress that structures and partnerships 
with the United States and other countries are only valuable if they 
lead to victim protection and traffickers being brought to justice.

    Question. Uzbekistan has spent the last 3 years on the Tier 2 Watch 
List of the Trafficking in Persons Report of the Department of State. 
Recognizing that the William Wilberforce Trafficking Victims Protection 
Reauthorization Act of 2008 created conditions for mandatory downgrade 
in tier rankings for countries that have been on the Tier 2 Watch List 
for 2 years, what specific steps would the Government of Uzbekistan 
need to take to avoid placement in the Report's Tier 3 category?

    Answer. To avoid a statutorily mandated downgrade to Tier 3 in the 
2011 TIP Report, the Government of Uzbekistan must either make 
sufficient increased efforts to eliminate human trafficking--per the 
statutory Minimum Standards--to move up to Tier 2, or meet the legal 
requirements for a waiver. A waiver may be granted if there is evidence 
that the country: (a) has a written plan that, if implemented, would 
constitute making significant efforts to come into compliance with the 
minimum standards for the elimination of trafficking, and (b) dedicates 
sufficient resources to implement the plan.
                                 ______
                                 

           Responses of Ambassador Luis CdeBaca to Questions
                Submitted by Senator Benjamin L. Cardin

    Question. In February 2010, the Organization for Security and 
Cooperation in Europe (OSCE) convened an expert workshop in Mongolia on 
combating modern slavery among its Asian Partners for Cooperation 
(Afghanistan, Australia, Japan, Republic of Korea, Mongolia, and 
Thailand). This event recognized the Asian Partner States as 
inseparable from countries of the OSCE region in the cycle of victim 
origin, transit, and destination. Specifically, this event synthesized 
OSCE expertise in victim protection and offender prosecution with East 
Asian efforts to combat human trafficking. As exemplified by this 
event, what other opportunities do you see for multilateral cooperation 
to address human trafficking in East Asia? Which multilateral 
institutions should be prioritized in fostering greater progress, 
especially among the numerous Tier 2 Watch List countries in the 
region?

    Answer. We see great potential for multilateral progress in Asia, 
as the countries of the region identify common problems and challenges 
to address Trafficking in Persons (TIP). Currently, the United Nations 
Inter-Agency Project on Human Trafficking (UNIAP) serves as the 
Secretariat to the Coordinated Mekong Ministerial Against Trafficking 
(COMMIT) Process, which has supported the six Mekong region governments 
(Thailand, Cambodia, Laos, Burma, Vietnam, China) in the 
institutionalization of effective multisectoral approaches to combat 
trafficking since 2003. The COMMIT Process is perhaps the most 
successful multilateral initiative we've seen worldwide in bringing 
about greater communication and cooperation between governments--both 
formally through memoranda of understanding and agreements, and 
informally through regular cross-border meetings--on trafficking 
prosecutions and the protection and repatriation of trafficking 
victims. This is due in large part to the role that the United Nations 
has played in organizing and evaluating Member States' actions and 
progress using international antitrafficking standards.
    The Association of South East Asian Nations (ASEAN) recently has 
shown itself to be the best placed multilateral organization to address 
human trafficking in East Asia. Over the last year, ASEAN has 
demonstrated a greater commitment to fighting human trafficking on a 
regional level. In 2010, ASEAN established a permanent Trafficking in 
Persons Working Group, which has announced a plan to develop a 
convention on human trafficking. The State Department is encouraged by 
the prospect of an ASEAN TIP convention, and we hope to work to 
encourage the organization to look to such regional models as the OAS 
regional action plan and the Council of Europe Convention. In the last 
year, we have been exploring opportunities to expand our cooperation 
with ASEAN, both through the Jakarta Secretariat and with various ASEAN 
members, in order to advance common understanding of the human 
trafficking challenge in Southeast Asia and best practices to address 
it. This effort is paying off--conference organizers recently contacted 
G/TIP to invite me to join Secretary General Pitsuwan in July to launch 
an ASEAN seminar on specialized antitrafficking prosecutorial units; 
that the conference will be hosted by the Singaporeans is a testament 
to the improved relations with ASEAN Member States in the wake of the 
2010 Trafficking in Persons Report, which firmly, but accurately 
assessed the strengths and weaknesses of Southeast Asian governments' 
efforts against human trafficking.

    Question. The United States has taken a leading role in combating 
global human trafficking. This year was the first time that the United 
States was required to report on itself in the TIP report. Has the 
inclusion of a report on the U.S. facilitated progress with our 
diplomatic efforts in combating human trafficking in the Asian region?

    Answer. While the TVPA does not mandate the inclusion of the United 
States in the TIP Report, it was important to Secretary Clinton that 
the United States be ranked in the report, both to hold ourselves to 
the same standards to which we hold other countries and to reap the 
benefits of the statutory minimum standards analysis, which have proven 
an effective diagnostic of governments' efforts to combat human 
trafficking. The U.S. narrative is balanced and self-critical, and 
includes more recommendations for improvement than any other country 
narrative. The U.S. record on combating human trafficking is consistent 
with that of other countries ranked as Tier 1, and upon evaluation of 
that record against the statutory minimum standards, the ranking was 
clear. The impact of the U.S. ranking in the TIP Report in Asia has 
been largely positive: in my travels throughout the region, many 
government and civil society interlocutors have praised the ranking as 
demonstrating transparency and a willingness to holding ourselves to 
the same standards; some have criticized a Tier 1 ranking, but in so 
doing have revealed gaps in their understanding of the definition of 
trafficking, for instance by criticizing the United States for the 
problem of illegal migration. In all cases, however, the Department and 
Embassy personnel alike have used the inclusion of the United States in 
the report as an opportunity to speak more openly about the challenges 
our country faces in combating human trafficking, and to cast the 
report and our anti-TIP diplomacy as part of a shared burden to end a 
common scourge through development of partnerships and best practices. 
We believe this spirit of openness has had a positive impact on our 
diplomatic engagement, both in Asia and globally.

    Question. TVPA will expire this year. With each reauthorization, we 
have attempted to give our Government agencies more tools to assist in 
the fight to combat human trafficking. Under the current budget 
constraints, how can this legislation be improved and what additional 
tools are necessary to further our fight against global human 
trafficking?

    Answer. The TVPA has changed the world in profound ways. As a 
career ambassador recently told a gathering of reporting officers from 
posts across an entire region, perhaps no U.S. foreign policy effort in 
the last decade has had such a rapid transformative effect, with over 
140 new laws and global acceptance of the 3P paradigm (of prevention, 
protection, and prosecution) that was conceived in America in the late 
1990s. Each year, the statutorily mandated TIP Report has had a 
tremendous impact in raising global awareness of TIP, as well as in 
spurring governments to acknowledge and act against modern slavery.
    Our commitment to combating this modern form of slavery often means 
telling friends truths that they may not want to hear, which can 
occasionally create tensions in bilateral diplomatic relations. But as 
Secretary Clinton has said: ``Now this is a process that is fraught 
with all kinds of feelings and I recognize that, but the easiest way to 
get out of the tier three and get off the watch list is to really act. 
And we had some real friends--countries that are friends on so many 
important issues, and they were very upset when we told them that they 
were not going to progress and, in fact, were in danger of regressing. 
And then they said, `Well, what can we do?' And we said, `Well, we've 
pointed this out, we point it out again, and we will stand ready to 
help you.' ''
    As with all efforts to monitor and evaluate, we seek constant and 
appreciable progress from governments in their efforts to combat 
trafficking while avoiding the addition of new unrealistic standards 
for a government to meet or, conversely, lowering the bar for a 
government's progress. In terms of possible changes to the law, the 
State Department expects to work with our interagency partners on the 
reauthorization of the Trafficking Victims Protection Act through the 
Senior Policy Operating Group's legislative subcommittee and in 
conjunction with the OMB process. We would welcome the opportunity to 
consult with your staff in the coming months.

    Question. In your written testimony, you mention that as long as 
governments are moved to address the problem--Malaysia and Indonesia 
have moved up from Tier 3. But then you have countries like Burma and 
North Korea, both of which have been chronically listed as Tier 3. What 
discussions have taken place with these governments about improvements? 
What is your sense from these Governments? In cases of persistent 
presence as a Tier 3 Country, are the sanctions enough? Is there 
another way to compel Governments to pursue combating trafficking 
because it is in their self interest?

    Answer. Burma and North Korea are among the world's worst human 
rights violators--regimes that are directly involved in subjecting 
their citizens to forced labor in prison camps. In both countries, the 
prospects for serious reforms in addressing human rights are dim, 
absent radical political change. While the USG has some limited 
engagement with both governments, we do not have structured human 
rights or human trafficking dialogues with either. We recognize that, 
while in many cases the prospect of a lower tier ranking is sufficient 
to spur government action, a government that is hostile to basic human 
rights might not be compelled to act even through the threat of 
additional sanctions. In the case of North Korea, we continue to make 
clear that addressing human rights issues will have a significant 
impact on the prospect for closer U.S.-DPRK ties. But there are always 
means of engagement, especially when encouraging a country to rise to 
internationally accepted law enforcement techniques and standards in 
investigation and victim protection. In the case of Burma, we continue 
to engage, whether through our diplomats in Rangoon or through regional 
efforts such as the COMMIT process, the United Nations regional offices 
in Bangkok, and partners such as the AusAID-funded ARTIP project. 
However, the TIP Report's assessment of such regimes plays a large role 
in exposing their hostility to addressing this human rights abuse and 
government complicity in human trafficking.

    Question. The United States offers grants and assistance in 
combating human trafficking. What tools have been more effective in the 
fight against trafficking--foreign aid and assistance or sanctions? And 
what types of foreign aid or assistance (i.e., trainings, government 
grants to NGO or government agencies, etc.) have been the most 
effective in combating trafficking?

    Answer. The threat of assistance restrictions and the availability 
of foreign assistance are both important tools in the fight against 
trafficking and should be maintained. The availability of both of these 
tools factor significantly into bilateral diplomatic engagement with 
foreign governments. We have observed that countries facing a Tier 3 
ranking are particularly concerned about potential U.S. voting 
restrictions in the international financial institutions; others are 
concerned about the prospect of losing U.S. military assistance or 
economic aid. Countries receiving assistance from the U.S. Government 
Millennium Challenge Corporation (MCC) worry about the impact a lower 
tier ranking will have on continued funding by the MCC, and many 
countries simply want to avoid the harm a lower tier ranking could do 
to their reputation.
    USG antitrafficking foreign assistance priorities are guided by the 
tier rankings, evidence of political will to improve the response to 
human trafficking, national economic resources, and the possibility of 
successful interventions. While funds obligated by the Office to 
Monitor and Combat TIP are used exclusively to combat trafficking in 
persons, there are other offices within the Department of State, USAID, 
and the Department of Labor that provide foreign assistance in this 
area. Taken together, this assistance supports a range of 
countertrafficking aid in the areas of prevention, protection, and 
prosecution. Since 2009, new structures and the addition of several 
programs officers in the Office to Monitor and Combat TIP have allowed 
us to shorten the time between diagnosis and project establishment. We 
have found that the ability to quickly provide assistance--whether 
victim services, law enforcement training, or technical assistance in 
legal drafting or formation of interagency structures--allows us to 
take advantage of the willingness of a government to do what is 
necessary to avoid a low ranking in future reports.
    To date, the USG has identified a number of ``promising practices'' 
that appear to be effective in combating trafficking. Promising 
practices are those interventions that have demonstrated efficacy in 
case studies, but have not yet been subjected to a rigorous evaluation.
    With respect to prevention, the USG has supported many awareness 
programs that have achieved a broad reach and have mobilized 
communities against trafficking. Working with a NGO in India, a G/TIP 
program has demonstrated the effectiveness of radio drama in promoting 
knowledge and community advocacy among individuals vulnerable to bonded 
labor in two Indian states. The radio program has significantly 
increased the ability of individuals in the target states to access 
existing government programs. The data show that awareness of bonded 
labor increased from 14 percent at baseline to 69 percent at endline 
among highly exposed listeners (who had listened to five or more 
episodes of the radio programs). Significantly more respondents with 
high exposure at endline reported being aware of the government 
compensation for freed bonded laborers compared with those respondents 
at baseline. This is a model for state governments to consider. Going 
forward, we hope to transition from generalized awareness campaigns to 
efforts that include a call to action that leads to quantifiable 
results in victims assisted and prosecutions.
    In terms of victim protection, USG funding has supported a variety 
of comprehensive services and followup case management for victims of 
trafficking, aided governments in developing victim-centered action 
plans and legislation, and facilitated the implementation of mechanisms 
to protect and support victims during their participation in 
investigations and trials.
    In Guatemala, for example, G/TIP funds a local NGO to build support 
systems that prevent retrafficking through the long-term 
rehabilitation, education, and counseling of victims. Children that 
enter the program receive followup support until they complete their 
education, regardless of how long that takes. This long-term commitment 
is a unique and essential asset of the program.
    In Serbia, a USG-funded program worked with the court to permit the 
recorded testimony of two foreign trafficking victims, allowing them to 
return home before the trial took place, as was their wish. The 
physical absence of the victims did not impede effective prosecution, 
and the perpetrators were convicted.
    With respect to prosecution, the USG has supported a significant 
amount of targeted capacity-building for foreign governments, law 
enforcement entities, nongovernmental organizations and civil society 
organizations. Funds are used to address the pressing need for training 
and technical assistance to improve the systemic response in protecting 
victims and prosecuting traffickers.
    In Ghana, for example, G/TIP provided funds for a U.S. TIP expert 
and a victim/witness coordinator to train law enforcement, prosecutors, 
and the staff of social welfare agencies. This helped pave the way for 
Ghana's successful prosecution, conviction, and sentencing of numerous 
sex traffickers, most notably in a pathbreaking forced child labor case 
in the Lake Volta region.
    USG assistance has also resulted in the increased 
institutionalization of government antitrafficking efforts. In 
Indonesia, G/TIP funded an integrated training program for law 
enforcement officials, labor inspectors, and prosecutors on identifying 
forced labor. This training program opened communication between these 
three groups and led to the development of a coordinated, interagency 
response to human trafficking. In addition, a USG-funded project in 
Nigeria increased the investigative capacities of its law enforcement 
agencies and the judiciary and supported enhanced victim rehabilitation 
services.
    USG agencies also fund projects to provide the most efficient ways 
to inform governments and NGOs of effective strategies for combating 
TIP. For example, USG funding is supporting the development and 
expansion of a global trafficking-in-persons database. It will be the 
largest global database with primary data on victims of trafficking, 
containing data on nearly 16,000 registered cases of victims of 
trafficking from 85 source and 100 destination countries over a 10-year 
period. While it does not yield a representative sample of trafficking 
victims worldwide, it provides useful quantitative and qualitative data 
about trafficking victims and trends. Through in-depth analyses of case 
information contained within the database, IOM has produced numerous 
reports that have informed the field about specific forms of 
trafficking and types of victims, including male and retrafficking 
victims.

    Question. The TIP report gives the United States a unique position, 
in that we can study our own human trafficking efforts as well as the 
efforts of countries a crossed the globe. This is part of the value of 
the TIP report. You have highlighted many efforts that are working well 
in the fight against modern slavery. The United States has recently 
begun refocusing on labor trafficking within our own borders. Are there 
any best practices being done in this region that could be helpful to 
us?

    Answer. The United States has demonstrated several successful 
practices to share with our partners around the world. Key among them 
is the collaborative task force structure of the Worker Exploitation 
Task Force formed in 1998 between the U.S. Departments of Labor and 
Justice to address forced labor. This was a precursor to the 
interagency task force to monitor and combat trafficking in persons 
mandated by the TVPA.
    The Worker Exploitation Task Force, and later the regional DOJ 
human trafficking task forces, showcase the effectiveness of these 
multidisciplinary groups that bring together federal, state, and local 
law enforcement officials with NGOs. We hope to work with Asian 
counterparts as they set up multidisciplinary teams of government 
officials in order to identify best practices from the region that can 
assist U.S. law enforcement as well. One promising approach seems to be 
the Government of the Philippines' efforts to protect workers overseas 
and to prosecute labor brokers for fraud and abuse; as our Fraud in 
Foreign Labor Recruiting statute is relatively untested, the 
experiences of our Filipino partners will be valuable in formulating 
our response to this aspect of human trafficking.

    Question. In recent years the United States has seen several cases 
of workers from Asia being recruited under fraudulent circumstances and 
forced into bonded labor on American soil. In 2008, 300 migrant workers 
recruited in India were held in debt bondage labor on Texas and 
Mississippi shipyards. Similarly, in September 2010 the California-
based Global Horizons was indicted for recruiting 400 Thai workers 
under promises of good wages and living conditions, only to hold them 
in slave-like conditions on farms in Hawaii and Washington State. In 
the context of the United States being a destination country, what 
initiatives have the U.S. consular offices in Asian countries 
undertaken to inform potential trafficking victims of their rights when 
coming to work in America? What other efforts can be initiated to help 
stop the trafficking of foreign victims into the United States?

    Answer. Recently concluded prosecutions, such as the U.S. v. Global 
Horizons case, are an example of the significant number of Asian 
workers recruited for work in the United States through the legal 
guestworker program who are subjected to conditions of forced labor 
after arrival in our country. In addition, highly vulnerable are female 
Asian workers who migrate to the United States for work as domestic 
servants, sometimes employed by foreign diplomats.
    Recognizing this vulnerability, the Department has taken a number 
of steps to prevent labor trafficking of foreign migrants. Starting in 
early 2010, U.S. consulates began distributing a pamphlet to applicants 
for H2A/2B (guestworker), J1 (work exchange programs, such as summer 
work-travel) and A3/G5 (domestic workers of diplomats or international 
organization officials) visas. The Department developed this pamphlet 
in coordination with NGOs. It informs prospective migrants of their 
rights under U.S. law and protections should they face abuse, including 
emergency contact information where they can obtain help in the event 
of such abuse. According to the operators of the National Human 
Trafficking Resource Center--a national, toll-free hotline funded by 
the Department of Health and Human Services--hundreds of calls have 
come in as a result of the pamphlets and consular interviews. While we 
cannot comment on ongoing cases, a number of trafficking investigations 
have resulted from those calls.
    Additionally, a pilot program is underway in six countries from 
which a significant number of J1 visas originate to address concerns 
about that temporary employment program. The pilot project will ensure 
that participants hold verified employment prior to arrival, prohibit 
the use of third party staffing agencies, and include increased 
oversight by the Department.
    The Department has also increased its training of Foreign Service 
officers--particularly consular officers who might come into contact 
with vulnerable migrant workers--and has started an ongoing dialogue 
with U.S.-based NGOs that assist foreign workers who are subjected to 
exploitation, with the goal of developing more effective strategies to 
preventing human trafficking.

                                  <all>

</pre></body></html>
